NO.

IN THE
SUPREME COURT OF THE UNITED STATES

John W. Anderson- PETITIONER
VS.
The University of Iowa. Board of Regents. State of
Iowa Attorney General's Office. Respondents

PROOF OF SERVICE
I, '\j\f\
, do swear or declare that on this date, j lluA\l
■
20 2. 1 , as required by Supreme Court Rule 29,1 have served the enclosed MOTICj'N FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel or every other person
required to be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them with first -class postage prepaid, or by delivery to
a third-party commercial carrier within eight (8) calendar days.
The names and addresses of those listed are as follows:
The University of Iowa. Jessup Hall. The University of Iowa, Iowa City. IA 52242_________
The Iowa Board of Regents, 11260 Aurora Avenue.Urbandale. IA 50322_________________
Iowa Attorney General's Office, Hoover Bldg. 1. 1305 East Walnut St. Des Moines, IA 50319
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/A ftAj <&>

, 20 9 1 ■

On Petitioner’s Behalf (Signatur

RECEIVED
JUN 2 - 2021
OFFICE OF THE CLERK
Supreme COURT. U.S. _

